78124             Federal Register / Vol. 65, No. 241 / Thursday, December 14, 2000 / Proposed Rules

to prevent loss of propeller control because      propeller. Such failure could lead to loss of     problem, you must do the following, unless

of hardening or blocking of the control cable,    airplane control.                                 already accomplished:

which could result in the inability to control      (d) What actions must I accomplish to

propeller pitch and inability to feather the      address this problem? To address this


                    Actions                                         Compliance                                      Procedures

Install a thermal protection sleee on the pro­    Within the next 100 hours time-in-service (TIS)   Do this installation following the ACCOM­
  peller control cable.                            after the effective date of this AD or within      PLISHMENT INSTRUCTIONS of Socata
                                                   the next 3 calendar months after the effec­        Service Bulletin SB 70–084, dated Sep­
                                                   tive date of this AD, whichever occurs first,      tember 2000, and the applicable mainte­
                                                   unless already done.                               nance manual.



   (e) Can I comply with this AD in any other       Issued in Kansas City, Missouri, on             Washington, DC, on Monday through
way? You may use an alternative method of         December 7, 2000.                                 Friday of each week from 8:00 a.m. to
compliance or adjust the compliance time if:      Larry E. Werth,                                   4:30 p.m.
   (1) Your alternative method of compliance      Acting Manager, Small Airplane Directorate,       FOR FURTHER INFORMATION CONTACT: Joel
provides an equivalent level of safety; and       Aircraft Certification Service.                   Schaer, (202) 619–0089, OIG
   (2) The Manager, Small Airplane                [FR Doc. 00–31892 Filed 12–13–00; 8:45 am]        Regulations Officer.
Directorate, approves your alternative. Send
your request through an FAA Principal
                                                  BILLING CODE 4910–13–U                            SUPPLEMENTARY INFORMATION:
Maintenance Inspector, who may add                                                                  I. Background
comments and then send it to the Manager,
Small Airplane Directorate.                       DEPARTMENT OF HEALTH AND                          A. The OIG Safe Harbor Provisions
   Note 1: This AD applies to each airplane       HUMAN SERVICES                                       Section 1128B(b) of the Social
identified in paragraph (a) of this AD,
                                                  Office of Inspector General                       Security Act (the Act) (42 U.S.C. 1320a–
regardless of whether it has been modified,                                                         7b(b)) provides criminal penalties for
altered, or repaired in the area subject to the                                                     individuals or entities that knowingly
requirements of this AD. For airplanes that       42 CFR Part 1001
                                                                                                    and willfully offer, pay, solicit or
have been modified, altered, or repaired so                                                         receive remuneration in order to induce
that the performance of the requirements of
                                                  Solicitation of New Safe Harbors and
                                                  Special Fraud Alerts                              business reimbursed under the Federal
this AD is affected, the owner/operator must                                                        or State health care programs. The
request approval for an alternative method of     AGENCY: Office of Inspector General               offense is classified as a felony, and is
compliance in accordance with paragraph (e)       (OIG), HHS.                                       punishable by fines of up to $25,000
of this AD. The request should include an
                                                  ACTION: Notice of intent to develop               and imprisonment for up to 5 years. The
assessment of the effect of the modification,
alteration, or repair on the unsafe condition
                                                  regulations.                                      OIG may also impose administrative
addressed by this AD; and, if you have not                                                          sanctions or exclude violators from the
                                                  SUMMARY: In accordance with section
eliminated the unsafe condition, specific                                                           Federal or State health care programs.
                                                  205 of the Health Insurance Portability              The types of remuneration covered
actions you propose to address it.                and Accountability Act (HIPAA) of                 specifically include kickbacks, bribes,
   (f) Where can I get information about any      1996, this annual notice solicits
already-approved alternative methods of
                                                                                                    and rebates, whether made directly or
                                                  proposals and recommendations for                 indirectly, overtly or covertly, or in cash
compliance? Contact Karl Schletzbaum,             developing new and modifying existing
Aerospace Engineer, FAA, Small Airplane                                                             or in kind. In addition, prohibited
                                                  safe harbor provisions under the Federal          conduct includes not only remuneration
Directorate, 901 Locust, Room 301, Kansas
                                                  and State health care programs’ anti-             intended to induce referrals of patients,
City, Missouri 64016; telephone: (816) 329–
4146; facsimile: (816) 329–4090.
                                                  kickback statute, as well as developing           but remuneration intended to induce
   (g) What if I need to fly the airplane to      new OIG Special Fraud Alerts.                     the arranging for or the purchasing,
another location to comply with this AD? The      DATES: To assure consideration, public            leasing or ordering of any good, facility,
FAA can issue a special flight permit under       comments must be delivered to the                 service, or item paid for by Federal or
sections 21.197 and 21.199 of the Federal         address provided below by no later than           State health care programs.
Aviation Regulations (14 CFR 21.197 and           5 p.m. on February 12, 2001.                         Since the statute on its face is so
21.199) to operate your airplane to a location    ADDRESSES: Please mail or deliver your            broad, concern has been expressed for
where you can accomplish the requirements         written comments to the following                 many years that some relatively
of this AD.                                       address: Office of Inspector General,             innocuous commercial arrangements are
   (h) How do I get copies of the documents       Department of Health and Human                    technically covered by the statute and
referenced in this AD? You may get copies of                                                        are, therefore, subject to criminal
                                                  Services, Attention: OIG–51–N, Room
the documents referenced in this AD from
                                                  5246, Cohen Building, 330                         prosecution. As a response to the above
SOCATA Groupe AEROSPATIALE, Customer
                                                  Independence Avenue, SW.,                         concern, the Medicare and Medicaid
Support, Aerodrome Tarbes-Ossun-Lourdes,
BP 930—F65009 Tarbes Cedex, France; or the        Washington, DC 20201.                             Patient and Program Protection Act of
Product Support Manager, SOCATA—                    We do not accept comments by                    1987, section 14 of Public Law 100–93,
Groupe AEROSPATIALE, North Perry                  facsimile (FAX) transmission. In                  specifically required the development
Airport, 7501 Pembroke Road, Pembroke             commenting, please refer to file code             and promulgation of regulations, the so-
Pines, Florida 33023. You may look at these       OIG–51–N. Comments received timely                called ‘‘safe harbor’’ provisions,
documents at FAA, Central Region, Office of       will be available for public inspection as        designed to specify various payment
the Regional Counsel, 901 Locust, Room 506,       they are received, generally beginning            and business practices which, although
Kansas City, Missouri 64106.                      approximately 3 weeks after publication           potentially capable of inducing referrals
   Note 2: The subject of this AD is addressed    of a document, in Room 5541 of the                of business under the Federal and State
in French AD 2000–430(A), dated November          Office of Inspector General at 330                health care programs, would not be
15, 2000.                                         Independence Avenue, SW.,                         treated as criminal offenses under the
                    Federal Register / Vol. 65, No. 241 / Thursday, December 14, 2000 / Proposed Rules                                     78125

anti-kickback statute (section 1128B(b)              C. Section 205 of Public Law 104–191               Fraud Alerts beyond those summarized
of the Act; 42 U.S.C. 1320a–7b(b)) and                  Section 205 of Public Law 104–191               in the appendix to the OIG Semiannual
would not serve as a basis for a program             requires the Department to develop and             Report referenced above.
exclusion under section 1128(b)(7) of                publish an annual notice in the Federal
the Act; 42 U.S.C. 1320a–7(b)(7). The                                                                   Criteria for modifying and establishing
                                                     Register formally soliciting proposals             safe harbor provisions
OIG safe harbor provisions have been                 for modifying existing safe harbors to
developed ‘‘to limit the reach of the                the anti-kickback statute and for                     In accordance with the statute, we
statute somewhat by permitting certain               developing new safe harbors and                    will consider a number of factors in
non-abusive arrangements, while                      Special Fraud Alerts.                              reviewing proposals for new or
encouraging beneficial and innocuous                    In developing safe harbors for a                modified safe harbor provisions, such as
arrangements’’ (56 FR 35952, July 29,                criminal statute, the OIG is compelled to          the extent to which the proposals would
1991). Health care providers and others              engage in a complete and thorough
                                                                                                        effect an increase or decrease in—
may voluntarily seek to comply with                  review of the range of factual
these provisions so that they have the               circumstances that may fall within the                • Access to health care services;
assurance that their business practices              proposed safe harbor subject area so as               • The quality of care services;
are not subject to any enforcement                   to uncover all potential opportunities
                                                                                                           • Patient freedom of choice among
action under the anti-kickback statute or            for fraud and abuse. Only then can the
                                                                                                        health care providers;
program exclusion authority.                         OIG determine, in consultation with the
                                                     Department of Justice, whether it can                 • Competition among health care
   To date, the OIG has developed and
                                                     effectively develop regulatory                     providers;
codified in 42 CFR 1001.952 a total of
21 final safe harbors that describe                  limitations and controls that will permit             • The cost to Federal health care
                                                     beneficial and innocuous arrangements              programs;
practices that are sheltered from
                                                     within a subject area while, at the same
liability. The OIG is also currently
                                                     time, protecting the Federal health care              • The potential overutilization of the
developing a final safe harbor rule                                                                     health care services; and
                                                     programs and their beneficiaries from
addressing ambulance restocking
                                                     abusive practices.                                    • The ability of health care facilities
arrangements.
                                                     II. Solicitation of Additional New                 to provide services in medically
B. OIG Special Fraud Alerts                          Recommendations and Proposals                      underserved areas or to medically
                                                                                                        underserved populations.
   In addition, the OIG has also                        In accordance with the requirements
periodically issued Special Fraud Alerts             of section 205 of Public Law 104–191,                 In addition, we will also take into
to give continuing guidance to health                the OIG is continuing to study safe                consideration the existence (or
care providers with respect to practices             harbor and Special Fraud Alert                     nonexistence) of any potential financial
the OIG regards as unlawful. These                   proposals submitted in response to the             benefit to health care professionals or
Special Fraud Alerts serve to notify the             annual solicitations. Some of those                providers that may vary based on their
health care industry that the OIG has                suggestions have been addressed in the             decisions whether to (1) order a health
become aware of certain abusive                      safe harbor rulemakings published on               care item or service, or (2) arrange for
practices that the OIG plans to pursue               November 19, 1999 (64 FR 63504 and 64              a referral of health care items or services
and prosecute, or to bring civil and                 FR 63518) or are already under                     to a particular practitioner or provider.
administrative action, as appropriate.               development. The OIG last published a
                                                     Federal Register solicitation notice for           Criteria for Developing Special Fraud
The Special Fraud Alerts also serve as                                                                  Alerts
a tool to encourage industry compliance              developing new safe harbors and
by giving providers an opportunity to                Special Fraud Alerts on December 10,
                                                                                                           In determining whether to issue
examine their own practices. The OIG                 1999 (64 FR 69217). The OIG received
                                                                                                        additional Special Fraud Alerts, we will
Special Fraud Alerts are intended for                17 timely-filed responses from a cross-
                                                     section of organizations, associations             also consider whether, and to what
extensive distribution directly to the                                                                  extent, those practices that would be
health care provider community, as well              and other interested parties. In response
                                                     to that and previously-issued Federal              identified in new Special Fraud Alerts
as those charged with administering the                                                                 may result in any of the consequences
Medicare and Medicaid programs.                      Register solicitation notices, a status
                                                     report of the public comments received             set forth above, and the volume and
   In developing these Special Fraud                 for new and modified safe harbors is set           frequency of the conduct that would be
Alerts, the OIG has relied on a number               forth in Appendix G to the OIG’s                   identified in these Special Fraud Alerts.
of sources and has consulted directly                Semiannual Report covering the period                 A detailed explanation of
with experts in the subject field,                   April 1, 2000 through September, 30,               justifications or empirical data
including those within the OIG, other                2000.2 OIG is currently taking the                 supporting the suggestion, and sent to
agencies of the Department, other                    recommendations listed in the appendix
Federal and State agencies, and those in                                                                the address indicated above, would
                                                     under advisement and is not seeking                prove helpful in our considering and
the health care industry. To date, ten               additional public comment on those
individual Special Fraud Alerts have                                                                    drafting new or modified safe harbor
                                                     proposals at this time. Rather, this               regulations and Special Fraud Alerts.
been issued by the OIG and                           notice seeks additional
subsequently reprinted in the Federal                recommendations from affected                        Dated: December 7, 2000.
Register.1                                           provider, practitioner, supplier and               June Gibbs Brown,
                                                     beneficiary representatives regarding the          Inspector General.
   1 See 59 FR 65372 (December 19, 1994); 60 FR
                                                     development of proposed or modified                [FR Doc. 00–31808 Filed 12–13–00; 8:45 am]
40847 (August 10, 1995); 61 FR 30623 (June 17,
1996); 63 FR 20415 (April 24, 1998); and 64 FR       safe harbor regulations and new Special            BILLING CODE 4152–01–P
1813 (January 12, 1999). The OIG has also issued
three Special Advisory Bulletins—64 FR 37985           2 The OIG Semiannual Report can be accessed

(July 14, 1999); 64 FR 52791 (September 30, 1999);   through the OIG web site at http://www.dhhs.gov/
and 64 FR 61353 (November 10, 1999).                 oig/semann/index.htm.
